U.S. Department of Agriculture
 Office of Inspector General
      Southwest Region
         Audit Report



        Farm Service Agency
     Payment Limitation Review
        of a Joint Venture in
      Bryan County, Oklahoma




                Report No.
                03099-26-Te
                June 2000
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                        OFFICE OF INSPECTOR GENERAL
                                            Southwest Region - Audit
                                        101 South Main Street, Suite 324
                                              Temple, Texas 76501
                                     TEL: 254-743-6565 FAX: 254-298-1373




DATE:           June 23, 2000

REPLY TO
ATTN OF:        03099-26-Te

SUBJECT:        Payment Limitation Review in Bryan County, Oklahoma

TO:             Terry L. Peach
                State Executive Director
                Oklahoma State Farm Service Agency
                100 USDA, Suite 102
                Stillwater, OK 74074-2653


This report presents the results of the subject audit. Your written response to the draft report is included
as exhibit E. Excerpts from the written response along with the Office of Inspector General's position
have been incorporated into the relevant sections of the report.

Based on your response, management decisions have not been reached for Recommendations Nos. 1
and 2. The information needed to reach agreement is set forth in the Recommendations section of the
report. In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframes for implementation for all
recommendations. Please note that the regulation requires management decisions to be reached on all
findings and recommendations within a maximum of 6 months from report issuance.

We appreciate the cooperation and assistance provided during the audit.


/s/John O. Leavy

JOHN O. LEAVY
Regional Inspector General
 for Audit

Attachment
                       EXECUTIVE SUMMARY


                                      We performed an audit of individuals B and C’s
     RESULTS IN BRIEF                 joint venture (JV) farming operation in
                                      Bryan County, Oklahoma, to determine if
         payment limitation provisions were violated.        We also reviewed a
         corporation’s (solely-owned by individual A) activity based upon its
         association with the JV and individuals B and C. The audit was performed at
         the request of the Oklahoma State Farm Service Agency (FSA) Office after
         an end-of-year review by FSA disclosed serious eligibility questions
         regarding payment limitation rules.

           Our review disclosed that individual A (doing business as a corporation)
           initiated actions to evade payment limitation provisions. The actual farming
           operation and related transactions of individuals B and C were controlled by
           individual A, who concealed his true interest in the JV’s farming operation.
           Our review revealed that individual A, hired an attorney and a farm consultant
           to prepare the JV agreement, a land lease, and equipment purchase
           documents. While the JV entity was established on paper, our review of
           1997 and 1998 records for the JV and corporation showed that the JV was
           not separate and distinct from individual A’s corporate operation. We
           concluded that individual A’s entity, with the assistance of individuals B and
           C, orchestrated the establishment of the JV entity to obtain additional
           program payments rather than as an entity to conduct separate farming
           operations. As a result, program payments totaling $450,887 issued to
           individuals B and C and the corporation for 1997 through 1999 are subject to
           refund if FSA determines these individuals adopted a scheme or device to
           obtain unauthorized payments.

           The JV farming operation was carried out in such a manner that individuals B
           and C did not meet the criteria to be considered actively engaged in farming
           or separate persons for 1997 and 1998. Contrary to the farm operating plans
           they submitted, we found that individual A’s corporation financed the JV by
           providing the capital, land, equipment, and operating expenses for 1997 and
           1998. Although an equipment note and a land lease were prepared, the
           corporation did not require the JV to honor the written agreements. Further,
           records showed that the corporation not only paid the daily farm operating
           expenses for the JV’s crop A operation in 1997 and 1998, but also directly
           received the proceeds from the production of crop A in 1997. The
           corporation, as the landowner, provided all of the major investments and
           assumed the risk for loss or gain on the JV’s crop A operation.




USDA/OIG-A/03099-26-Te                                                           Page i
                                    JUNE 2000
           Additionally, the JV did not maintain funds and accounts separate from the
           corporation and did not exercise separate responsibility for its interest in the
           crops. Further, our review disclosed that the JV did not establish any trade
           accounts for fertilizer, fuel, chemicals, seed, and other farm related supplies
           common to the operation of crop A. Other than a handwritten summary of
           revenue and expenses for 1997 and 1998, the JV did not maintain any
           records to show expenses relating to the equipment notes, land lease
           payments, and trade accounts for the farming operation. The JV’s operating
           expenses were commingled with the corporation’s crops A and B expenses.
            Since the corporation and the JV did not maintain separate accounts and
           they could not determine what either party owed, we concluded they were not
           separate and distinct operations.

           We also concluded that individual A placed individuals B and C on the land
           as hired employees of the corporation to receive program payments that he
           would not have otherwise qualified for through the corporation. A summary of
           monetary results is shown as exhibit A.

                                     We recommend FSA determine whether
 KEY RECOMMENDATIONS                 individuals A, B, and C violated scheme or
                                     device, actively engaged in farming, and
        separate person payment limitation provisions for 1997 and 1998. We also
        recommend that FSA apply the most restrictive rule in their determinations
        and collect up to $450,887 in 1997 through 1999 program payments issued
        to individuals B and C and individual A’s corporation as appropriate.

                                   A written response to the draft report (see
    AGENCY RESPONSE                exhibit E) shows that the Oklahoma State FSA
                                   Office agreed with the recommendations and
        will have a joint meeting with the Bryan County FSA Committee and the
        Wagoner County FSA Committee in order for them to make a determination
        based on information provided in the audit. Based on the determination
        made at the joint committee meeting, FSA will notify individuals A, B, and C
        of the amounts of repayment required.

                                     We are in agreement with the action taken to
        OIG POSITION                 date, however, to reach management decisions
                                     on the recommendations, we will need a written
          response showing the joint committee’s determination and documentation
          showing that any ineligible payments are recovered in the agency’s
          accounting records.




USDA/OIG-A/03099-26-Te                                                             Page ii
                                     JUNE 2000
                                         TABLE OF CONTENTS

EXECUTIVE SUMMARY............................................................................................................i
   RESULTS IN BRIEF ...............................................................................................................i
   KEY RECOMMENDATIONS ................................................................................................ii
   AGENCY RESPONSE...........................................................................................................ii
   OIG POSITION.........................................................................................................................ii
TABLE OF CONTENTS ...........................................................................................................iii
INTRODUCTION.........................................................................................................................1
   BACKGROUND......................................................................................................................1
   OBJECTIVE.............................................................................................................................2
   SCOPE .....................................................................................................................................2
   METHODOLOGY ....................................................................................................................3
FINDINGS AND RECOMMENDATIONS................................................................................4
   CHAPTER 1.............................................................................................................................4
   PRODUCERS ADOPTED SCHEME OR DEVICE TO EVADE PAYMENT
   LIMITATION RULES ..............................................................................................................4
   FINDING NO. 1 ........................................................................................................................4
   RECOMMENDATION NO. 1 .............................................................................................. 23
   RECOMMENDATION NO. 2 .............................................................................................. 23
GENERAL COMMENTS ........................................................................................................ 25
   EXHIBIT A – SUMMARY OF MONETARY RESULTS.................................................. 27
   EXHIBIT B – SUMMARY OF 1997, 1998, AND 1999 FARM PROGRAM PAYMENTS
   ISSUED TO JV MEMBERS AND THE CORPORATION ............................................. 28
   EXHIBIT C – INFORMATION SHOWN ON HANDWRITTEN LISTING OF JV
   REVENUE AND EXPENSES............................................................................................ 29
   EXHIBIT D – SUMMARY OF COMBINED EXCESS PROGRAM BENEFITS
   RECEIVED BY THE CORPORATION ............................................................................. 30
   EXHIBIT E – FSA RESPONSE TO THE DRAFT REPORT ........................................ 31
ABBREVIATIONS ................................................................................................................... 32




USDA/OIG-A/03099-26-Te                                                                                                             Page iii
                                                             JUNE 2000
                              INTRODUCTION

                                         A limitation on the total annual payments that a
        BACKGROUND                       person may receive under agricultural programs
                                         has been in effect since the enactment of the
          Agricultural Act of 1970. Subsequent legislation, including the Food Security
          Act of 1985, the Omnibus Budget Reconciliation Act of 1987, and the Food,
          Agricultural, Conservation, and Trade (FACT) Act, modified the provisions
          that define a person and the rules for payment limitation and payment
          eligibility. Most recently the Agriculture Marketing Transition Act (AMTA) was
          initiated under Title I of the Federal Agriculture Improvement and Reform
          (FAIR) Act of 1996, Public Law 104-127, dated April 4, 1996 (the Farm Bill).
           The AMTA authorized production flexibility contract (PFC) payments to
          producers on farms with feed grain, cotton, and rice bases.

            Under the Farm Bill, a $40,000 payment limitation ceiling per fiscal year (FY)
            applies to PFC payments, but there are provisions that exclude certain
            allocated funding from this limitation. The payments subject to the
            $40,000 limitations are termed “SL” payments, while excluded payments
            termed “NL” payments are subject to a $50,000 limitation over the 7-year life
            of a contract. Marketing loan gains and loan deficiency payments have a
            $75,000 limitation any one person can receive.

            The Omnibus Budget Reconciliation Act of 1987 amended the Food Security
            Act of 1985 to define the terms "person" and "actively engaged in farming."
            For payment limitation purposes, a "person" is an individual or an individual
            participating as a member of a joint operation or similar operation, including
            corporations and partnerships.

            For an individual or entity to be considered a separate person, the individual
            or entity must

               •   have a separate and distinct interest in the land or crop involved,

               •   exercise separate responsibility for this interest, and

               •   maintain funds or accounts separate from that of any other individual
                   or entity for this interest.

            For individuals or entities to be considered "actively engaged in farming,"
            they must

               •   make significant "left-hand" contributions to the farming operation of
                   one or a combination of (1) capital, (2) land, and/or (3) equipment;


USDA/OIG-A/03099-26-Te                                                              Page 1
                                      JUNE 2000
              •   make significant "right-hand" contributions to the farming operation of
                  one or a combination of active personal labor or active personal
                  management;

              •   claim a share of the profits or losses from the farming operation that is
                  commensurate with contributions to the farming operation; and

              •   the contributions must be at risk.

           If a producer has adopted or participates in adopting a scheme or device
           that is designed to evade, or has the effect of evading, the rules of the
           payment limitation and payment eligibility provisions, the producer is
           ineligible to receive farm program payments subject to limitation for the crop
           year for which the scheme or device was adopted and for the succeeding
           year. Acts that are considered schemes or devices include but are not
           limited to

              •   concealing information that affects the application of payment
                  limitation provisions,

              •   submitting false or erroneous information, or

              •   creating fictitious entities for the purpose of concealing the interest of
                  a “person” in a farming operation.

                                        The audit objective was to determine whether a
         OBJECTIVE                      JV in Bryan County, Oklahoma violated payment
                                        limitation provisions.

                                       The scope of our review included the 1997 and
            SCOPE                      1998 farming operations of the JV. We also
                                       made a review of a corporation’s (solely owned
           by individual A) program participation based upon its association with the JV
           and individuals B and C. We conducted fieldwork at the Bryan and Wagoner
           County FSA Offices from October 13, 1999, to April 10, 2000.

           Prior to our review, the Oklahoma State FSA Office conducted an
           end-of-year review for the 1997 crop year that disclosed evidence of
           potential payment limitation violations by individuals A, B, and C. Because
           of these indicated violations, the Oklahoma State FSA Office requested the
           Office of Inspector General (OIG) review the JV’s financial and farming
           operations to determine the extent of payment limitation rule violations.

           The following table summarizes the 1997 through 1999 program payments
           for the JV and corporation.




USDA/OIG-A/03099-26-Te                                                              Page 2
                                     JUNE 2000
                     PRODUCER               YEAR      PROGRAM PAYMENTS
                                            1997                 $ 56,494
                          JV                1998                   83,771
                                            1999                 131,603
                                            1997                   23,791
                      Corporation           1998                   50,226
                                            1999                 105,002
                           Total Payments                            $450,887

           This audit was performed in accordance with the Government Auditing
           Standards issued by the Comptroller General of the United States.
           Accordingly, the audit included such tests of program and accounting
           records as considered necessary to meet the audit objective.

                                       To accomplish the audit objective, we reviewed
      METHODOLOGY                      1997 and 1998 program records maintained by
                                       the Oklahoma State FSA Office, Bryan County
         FSA Office, and Wagoner County FSA Office. We interviewed FSA officials
         at three FSA offices and individuals A, B, and C. As applicable, we
         reviewed 1997 and 1998 bank statements, canceled checks, deposit slips,
         Federal income tax returns, bank records, loan agreements, crop settlement
         sheets, equipment listings, deeds of trust, land lease agreements, expense
         listings, real estate notes, equipment notes, fuel records, and chemical
         receipts. In addition, we reviewed records made available by certified public
         accounting (CPA) firms, marketing agencies, and others as considered
         necessary to confirm transactions affecting the 1997 and 1998 farming
         operations included in our audit.




USDA/OIG-A/03099-26-Te                                                          Page 3
                                    JUNE 2000
                   FINDINGS AND RECOMMENDATIONS


                           PRODUCERS ADOPTED SCHEME OR DEVICE TO
CHAPTER 1
                           EVADE PAYMENT LIMITATION RULES
                                              Individual A, operating as a corporation, used
              FINDING NO. 1                   two employees of his corporation to establish
                                              individuals B’s and C’s JV. The JV was used
                                              as a “front” to cash lease part of the
                 corporation’s cropland and qualify additional individuals B and C for payment
                 limitation purposes. Our review disclosed that the members of the JV were
                 not actively engaged in farming and not separate persons because individual
                 A’s corporation controlled all aspects of the JV’s farming operation. We,
                 therefore, concluded that these individuals concealed the true interests in the
                 JV farming operation to evade payment limitation provisions.               This
                 arrangement allowed individual A to receive program payments that he
                 would not have otherwise qualified for as one person through the corporation.
                   As a result, program payments totaling $450,887 received by the JV and
                 corporation for 1997 through 1999 are subject to refund if FSA makes an
                 adverse scheme or device determination.

                   Regulations provide that any producer who participates in adopting a
                   scheme or device to evade payment limitation shall be ineligible to receive
                   payments subject to payment limitation and payment eligibility provisions for
                   the year in which the scheme or device was adopted and for the succeeding
                   year. Acts that are considered a scheme or device include, but are not
                   limited to

                   •       concealing information that affects the application of the payment
                           limitation provisions,

                   •       submitting false or erroneous information, or

                   •       creating fictitious entities for the purpose of concealing the interest of
                           a person in a farming operation.1




1
    FSA Handbook 1-PL, (Revision 1), amendment 34, paragraph 71 E, dated February 18, 1997.


USDA/OIG-A/03099-26-Te                                                                        Page 4
                                                 JUNE 2000
                   Provisions further provide that, if the county office committee (COC) or State
                   committee determines that a producer or person adopted a scheme or
                   device to evade, or had the purpose of evading, payment limitation rules, all
                   payments received by a person for the year in which the scheme or device
                   was adopted are to be refunded, and FSA is not to make payments to the
                   person in the succeeding year.2

                   BACKGROUND

                   In 1996, Individual A was the owner of a corporation operating a farming
                   operation in Wagoner County, Oklahoma. The corporation’s operation
                   consisted of four farms participating in the AMTA program on 463.3 contract
                   acres of wheat, oats, corn, and sorghum that qualified for PFC payments
                   totaling $8,648 in 1996. Individual A was combined with the corporation as
                   one person for payment limitation purposes. In 1997, the corporation
                   purchased an additional 3,667 acres in Bryan County, Oklahoma, and hired
                   individuals B and C to manage 567 acres of this acreage for the crop B
                   business. Individuals B and C, subsequently established a JV and cash
                   leased the remaining 3,100 acres purchased by the corporation. The JV
                   was approved to participate as two persons in Bryan County. The 567 acres
                   retained for crop B were combined with the corporation’s operations in
                   Wagoner County. The corporation earned farm program payments in both
                   Wagoner and Bryan Counties while individuals B and C received payments
                   in Bryan County, farming as a JV.

                   Individual A discussed with Wagoner County FSA Office officials his
                   intentions to purchase additional property in Bryan County. He told them the
                   land he planned to purchase had several hundred acres of base on which the
                   payments, when combined with his current participating farm in
                   Wagoner County, would exceed the $40,000 payment limitation. The farm
                   had 2,971.5 AMTA contract acres of wheat, corn, and sorghum that qualified
                   for over $60,000 in estimated PFC payments for each of the remaining 6
                   years (1997 through 2002) of the contract. Individual A further stated that he
                   was considering recording the land on the deed in his name rather than in the
                   name of the corporation in order to receive more than the one-person PFC
                   limit of $40,000. The Wagoner County office representative told him that
                   since he owned 100 percent of the corporation as an individual, he would be
                   combined with the corporation and limited to one person for payment
                   limitation purposes. Individual A then said he was going to obtain the
                   services of a consultant, a former employee in the Oklahoma State office, to
                   set up the farming operation in Bryan County.

                   On January 14, 1997, the Bryan County FSA Office received a letter from
                   individual A’s attorney stating that part of the reason individual A purchased
                   the farm in Bryan County was the availability of the 7-year (6 years
                   remaining) PFC. The letter further stated that in order to qualify for all of the

2
    FSA Handbook 1-PL (Revision 1), amendment 34, paragraph 71 F, dated February 18, 1997.

USDA/OIG-A/03099-26-Te                                                                       Page 5
                                                 JUNE 2000
           available PFC payments, it would be necessary for the payments to be made
           to two or more entities. The letter requested copies of the applicable
           regulations governing the AMTA program, including information on the kinds
           of entities that were qualified to receive PFC payments.

           The Bryan County executive director’s (CED) January 27, 1997, written
           response addressed the maximum payments each person could earn along
           with the eligibility requirements for earning such payments. It specifically
           stated that a farm operator would not qualify unless the operator provided a
           significant contribution of land, equipment, or capital, as well as active
           personal labor or management. It also pointed out that an end-of-year review
           team usually reviewed new entities collecting payments in excess of $40,000
           and that a review for 1997 could be expected if that was the case. A copy of
           the Federal Register Part 1497, “Payment Limitation,” and a listing of the
           maximum PFC payments the farm could earn for the remaining 6 years of the
           PFC were included with the written response. The Bryan CED told us that an
           employee from Wagoner County had informed him that individual A had
           contacted the employee and wanted to know how to get around the $40,000
           payment limitation.

           In May 1997, a farm consultant, hired by individual A, contacted the Bryan
           CED and scheduled a meeting, which was also attended by individuals A, B,
           and C. At the meeting, individual A stated that individuals B and C had
           leased approximately 3,100 acres of the newly acquired farm as of
           March 27, 1997, to grow crop A. The corporation would operate the
           remaining 567 acres for crop B. The consultant explained to the CED how
           individual A planned to divide the farm between the corporation and JV. He
           sought assurance from the CED that the farm reconstitution could be timely
           completed for participation in the 1997 AMTA program. As a result of this
           meeting and prior conversations with Wagoner County officials, the CED and
           COC were concerned that individual A was trying to avoid payment limitation
           provisions.

           A reconstitution was approved splitting the purchased farm into two separate
           farms. One farm, containing 567 acres, retained 565.1 of the PFC acres
           with over $10,000 in estimated PFC payments per year. The other farm
           contained the remaining 3,100 acres with 2,406.4 PFC acres and estimated
           PFC payments of over $50,000 per year.

           On May 12, 1997, individuals B and C completed Form CCC-502B, Farm
           Operating Plan for Payment Eligibility Review for a JV or General
           Partnership, to participate in the 1997 AMTA program in Bryan County as a
           fifty-fifty JV. On July 8, 1997, the Bryan COC approved the JV to participate
           as two persons for payment limitation purposes. In addition to PFC
           payments, the JV also received marketing loss assistance (MLA) and loan
           deficiency payments (LDP) for both 1998 and 1999.



USDA/OIG-A/03099-26-Te                                                          Page 6
                                    JUNE 2000
           On June 20, 1996, individual A completed Form CCC-502C, Farm
           Operating Plan for Payment Eligibility Review for Corporations, Limited
           Partnerships, or Other Similar Entities, in Wagoner County. On July 11,
           1996, the Wagoner COC approved the corporation to participate as one
           person for payment limitation purposes. In 1997, the Wagoner County
           operation was combined with the additional land purchased in Bryan County
           that was not cash leased to the JV. Wagoner County served as the FSA
           control county for the corporation, but the corporation received payments in
           both Bryan and Wagoner Counties for a PFC in 1997; PFC and MLA in
           1998; and a PFC, MLA, and LDP in 1999. The 1997, 1998, and 1999
           program payments for the JV and corporation in Bryan County, along with the
           corporation’s payments in Wagoner County, totaled $450,887, as shown in
           exhibit B.

           On June 2, 1998, the Bryan County FSA Office notified the JV that they were
           selected for a 1997 payment limitation and payment eligibility end-of–year
           review. Documents and information were requested to verify whether the
           farming operation was carried out in 1997 as represented on the
           form CCC-502B on which the initial payment limitation and payment
           eligibility determinations were based. The review team identified several
           discrepancies between the information reported (certified) on
           form CCC-502B and the way the operation was actually being conducted,
           but they could not draw firm conclusions because the producers did not
           provide adequate information. The end-of-year review team believed that
           the JV producers had not done what was necessary, by regulation, to qualify
           for payments which were issued; however, based on the records to which
           FSA had access and statements made by individuals A, B, and C, a
           determination could not be made.

           On June 1, 1999, the Bryan County COC met and reviewed the results of the
           1997 end-of-year review on the JV. Based on this information, the COC had
           strong indications that individual A, doing business as the corporation, and
           individuals B and C had participated in a scheme to evade the payment
           limitations. There were indications that individuals B and C were simply
           listed as operators in order to receive PFC payments in excess of the
           $40,000 payment limitation. However, since the review team was unable to
           obtain the documentation needed to make a clear and decisive
           recommendation to the COC, the Oklahoma State FSA Office requested
           further assistance from OIG on June 14, 1999.




USDA/OIG-A/03099-26-Te                                                         Page 7
                                   JUNE 2000
           OIG REVIEW

           Based on the events that led to the formation of the JV and our review of how
           the farming operation was carried out, we concluded that individual A
           established the JV on paper to circumvent payment limitation rules. He
           talked with FSA personnel, obtained the AMTA and payment limitation
           regulations, and used a consultant and lawyer to (1) divide the PFC payment
           acres on a newly acquired farm between his corporation and the JV, and (2)
           create the JV to qualify two additional persons.             While this was
           accomplished on paper, the conduct of the actual farm operators did not
           support a JV that was separate and distinct from individual A’s corporation.

           The JV created documents and took actions, under the direction of individual
           A, to make the operation appear separate and distinct to FSA. The JV’s
           farm operating plan was completed to show that individuals B and C were
           contributing the necessary farming inputs (capital, land, and equipment) to
           qualify them as two persons, actively engaged in farming, and separate and
           distinct from any other individual or entity. These contributions of farming
           inputs were further defined in a written JV agreement between individuals B
           and C, prepared by a representative of individual A. To further establish the
           farming operation, a checking account was opened, a written land lease
           agreement with individual A’s corporation was signed, and a bill of sale,
           promissory note, and security agreement were executed for the JV’s
           purchase of equipment from the corporation.

           Although the above documents established the JV and served as the basis
           for FSA to approve the JV for a two-person payment limitation (individuals B
           and C), we determined that the actual farming operation was not conducted
           in the manner prescribed in the noted documents. Individuals B and C could
           not obtain a bank loan for operating funds and could not establish trade
           accounts; therefore, individual A’s corporation financed the JV throughout the
           year. The JV’s bank account and the members’ tax returns did not reflect the
           total income or expenses for the 1997 and 1998 crop A operations. The only
           income the JV showed for 1997 was PFC payments that were immediately
           paid out to the corporation for a partial land lease payment (the only expense
           recorded for the year). The JV had not reimbursed the corporation for daily
           farming expenses and had not made the required payments for the
           cash-leased land or purchased equipment. Individuals B and C also did not
           use any part of their salaries from the corporation to pay for the expenses of
           the crop A operation. The security agreement for the equipment stated that
           nonpayment of at least the interest due each year would cause the JV to
           default on the agreement, and the corporation could take possession of the
           equipment.

           We concluded that individual A’s corporation actually operated the JV’s
           farming operations and individuals B and C were merely paid employees of
           the corporation. The corporation owned the land and could reclaim the
           equipment since the JV had defaulted on the interest payments. All PFC

USDA/OIG-A/03099-26-Te                                                           Page 8
                                    JUNE 2000
           payments and crop proceeds were funneled back to the corporation in partial
           land or equipment payments and/or reimbursements of prior daily expenses
           paid by the corporation. The partial payments on land and equipment usually
           equated to the amount remaining in the JV’s checking account. The
           corporation paid the daily operating expenses throughout the year and was,
           therefore, at risk for the operation should the crop fail.

           The corporation did not require the JV to make land and equipment
           payments, which indicated that the corporation was not concerned about
           delinquent land and equipment payments. The corporation had neither an
           accounts receivable nor notes receivable established for debts owed by the
           JV. In addition, the corporation appeared as the crop A producer to outside
           parties. All the expenses associated with the JV’s crop A operation were
           charged to the corporation’s trade accounts. Therefore, we could not verify
           the actual expenses for the JV’s crop A operation to determine if the
           amounts the JV were reimbursing to the corporation were realistic or just a
           means to funnel all revenue to the corporation.

           The 1997 crop A was sold and deposited in the corporation’s name by
           individual A. In a letter dated August 28, 1998, to the Bryan CED, individual
           B stated that he had given the 1997 crop A to individual A in lieu of the rent,
           note payment, equipment, and taxes the JV owed to the corporation. In a
           November 30, 1999, interview, individual A said the 1997 crop A was in the
           corporation’s name because the corporation’s trucks hauled crop A to the
           grain elevator. He added that he did not sell crop A and/or did not receive
           proceeds from the sale of the crop. In a January 12, 2000, interview,
           individual B recanted the statements he made in the August 28, 1998, letter
           and said he gave the crop to individual A with the understanding that
           individual A could play the market with it or do what ever he wanted to do with
           the crop. Individual B further stated that individual A did not tell him how
           much he received from the sale of crop A or how much would be applied to
           the debt that he owed the corporation. Our review of the elevator records
           showed that the crop was delivered in the name of the corporation, the
           contract to sell the beans was signed by individual A for the corporation, and
           two checks totaling $279,620 were issued to the corporation.

           None of these proceeds appeared in the JV’s banking account, and the JV
           was not credited for any expenses owed on the corporation’s books. The
           only deposit for the JV in 1997 was $56,494 in PFC payments, which were
           immediately paid to the corporation as a partial land lease payment. Aside
           from the equipment and land payments due in 1997, the JV owed the
           corporation $63,304 in operating expenses. Therefore, the corporation had
           a net gain of $272,810 (279,620 + 56,494 – 63,304) from the JV’s crop A
           operation in 1997.

           In 1998, the corporation received $163,200 in checks from the JV (including
           about $81,800 in 1998 crop A proceeds) against $105,185 expenses
           (excluding the equipment and land payments due) for a net gain of $58,015.

USDA/OIG-A/03099-26-Te                                                            Page 9
                                     JUNE 2000
           We excluded the equipment and land payments because the JV was not
           honoring the total obligations for these expenditures. Thus, the proceeds
           received from the JV more than covered the daily operating expenses
           incurred for the crop. The corporation owned the land, and the JV had
           defaulted on the purported equipment purchase by not at least paying the
           interest on the equipment note. According to the equipment note agreement,
           individual A could reclaim the equipment if the JV did not at least make
           interest payments. Further evidence that individuals B and C did not
           purchase the equipment was the fact that they did not claim depreciation for
           the equipment on their 1997 tax returns. Depreciation was included on their
           1998 tax return after we questioned them about the missing depreciation on
           their 1997 tax return. (See General Comments section.)

           We concluded, based on the above, that individual A was merely using hired
           employees of the corporation to operate his land with his equipment and
           getting all proceeds (crop and FSA payments) funneled back to his
           corporation as farm operating expenses that could not be verified because
           all expenses for the corporation and JV were commingled. Individuals B and
           C were not at risk for the JV’s losses or unpaid operating expenses. Instead,
           they were paid for their work by the corporation and did not use any of their
           salaries to satisfy JV obligations.

           As a result, the corporation actually received net benefits for 1997 and 1998
           because crop proceeds and program payments funneled back to the
           corporation exceeded the daily operational expenses for the JV. The JV,
           established as a payment entity for the corporation, had net losses;
           therefore, the only benefit individuals B and C realized was the salaries they
           received from the corporation crop B’s operation. See exhibit C for a
           summary of 1997 and 1998 revenue and expenses for the JV.

           JV MEMBERS NOT ACTIVELY ENGAGED IN FARMING

           In order for a person to be eligible to receive payments under AMTA, the
           person must be actively engaged in farming. Generally, members of a JV
           can become “actively engaged in farming” by meeting all of the requirements
           in the following table.




USDA/OIG-A/03099-26-Te                                                          Page 10
                                    JUNE 2000
                       Item                                    Requirement
                         1         Contributions to the farming operation of both of the following are made.
                                   • The member or the joint operation makes a significant contribution of
                                     capital, equipment, or land, or a combination thereof (left-hand
                                     contribution), and
                                   • the member makes a significant contribution of active personal labor or
                                      active personal management, or a combination thereof (right-hand
                                      contribution).
                         2         The member must provide satisfactory evidence that his or her
                                   contributions of land, labor, management, equipment, or capital to the
                                   joint operation are commensurate with the member’s claimed share of
                                   the profits or losses of the joint operation.
                                                                                                   3
                         3         The member’s contributions to the farming operation are at risk.


                   Neither the JV nor individuals B and C made significant contributions of
                   capital, land, or equipment in 1997 and 1998 to qualify as actively engaged
                   in farming. In addition, the members could not be considered at risk for the
                   contributions they did not make. The members’ contributions, as reported to
                   FSA, did not qualify because we found that individual A’s corporation was
                   responsible for them, thereby making the corporation at risk for the JV’s crop
                   A operation. Since the corporation owned the farm the JV cash leased, the
                   corporation was considered to have an interest in the operation resulting in
                   restrictive payment limitation rules applicable to the loans, land leases, and
                   equipment purchases between the JV and corporation. The corporation
                   financed the JV’s farming operation both years by paying the daily operating
                   expenses and not requiring payments on land leases and purchases of
                   equipment. The JV purchased the equipment through a promissory note to
                   the corporation, but the JV did not make cash-lease land payments to the
                   corporation within a reasonable and customary time for the area as set by
                   the COC. All of these scenarios are violations of the payment limitation rules
                   for someone with an interest in the operation. See subheadings for capital,
                   land, equipment, and at risk below for details.

                   Form CCC-502B completed and certified as correct by individuals B and C
                   for the JV included the following contributions.

                                                                                 PERCENT OF      PERCENT OF
                                                                PERCENT OF         ACTIVE          ACTIVE
                                  PERCENT OF    PERCENT OF         LAND           PERSONAL        PERSONAL
                    PRODUCER       CAPITAL      EQUIPMENT      CONTRIBUTION        LABOR        MANAGEMENT
                   Individual B       50            50               50               50               50
                   Individual C       50            50               50               40               50


                   In addition, form CCC-502B stated that neither member was paid a salary or
                   bonus, 10 percent of the labor was to be hired, and the equipment was being
                   purchased from the corporation landowner from whom the JV was cash

3
    FSA Handbook 1-PL (Revision 1), amendment 30, paragraph 294 A, dated June 27, 1995.

USDA/OIG-A/03099-26-Te                                                                                Page 11
                                                JUNE 2000
                leasing the land. The person status for payment limitation purposes was
                completed by both individuals B and C requesting that each member of the
                joint operation be considered a person actively engaged in farming separate
                and distinct from any other individual or entity.

                Regulations state that a landowner has an interest in the farming operation
                containing the land owned, whether or not the landowner has an interest in
                the production or proceeds from the production. Therefore, the corporation,
                as landowner, is considered to have an interest in the farming operation of
                the JV.4

                JV Agreement

                A representative of individual A drew up a written JV agreement, dated
                March 27, 1997, which further defined duties required of individuals B and C.
                 The agreement stated that the members should plant as much of the farm as
                feasible in crop A and should thereafter grow, maintain, harvest, and sell the
                crop; the members should contribute all farm equipment purchased from the
                corporation for $308,000 under the provisions of a separate bill of sale,
                promissory note, and security agreement with the same date (March 27,
                1997); individual B would devote his full-time and best efforts to cultivating,
                planting, fertilizing, irrigating, weeding, growing, maintaining, and harvesting
                the farm’s crop; and individual C would be responsible for maintaining the
                books and records.

                Capital

                The capital used as a significant contribution by a farming operation may be
                borrowed. However, regulations require that borrowed capital must not have
                been acquired as a result of a loan made to, guaranteed by, or secured by
                any individual, entity, or joint operation that has an interest in the farming
                operation.5 Additional restrictions on capital require that it must be
                contributed directly to the farming operation from a fund or account separate
                and distinct from that of any other individual or entity with an interest in the
                farming operation.6

                Although form CCC-502B stated that individuals B and C would each
                contribute 50 percent of the capital to the JV’s farming operation, we were
                unable to substantiate a significant capital contribution by either individual
                during 1997 or 1998. Furthermore, the capital contributed to the operation
                was not from an account that was separate and distinct from the corporation,
                an entity with an interest in the operation. During 1997 and 1998, the JV did
                not obtain an operating loan, had minimal activity in their checking account,
                and individuals B and C did not have normal farming expenses related to the
                JV on their Federal tax returns. Additionally, the JV only paid 36 percent
4
  FSA Handbook 1-PL (Revision 1), amendment 12, paragraph 91 A, dated July 29, 1992.
5
  FSA Handbook 1-PL (Revision 1), amendment 29, paragraph 151 D, dated March 14, 1995.
6
  FSA Handbook 1-PL (Revision 1), amendment 1, paragraph 151 B, dated August 14, 1991.

USDA/OIG-A/03099-26-Te                                                                   Page 12
                                              JUNE 2000
           (56,494/155,000) of the land lease payment for 1997 and did not pay any
           cash-lease expense for 1998. The JV also did not honor the terms of the
           equipment lease with the corporation by at least paying the interest for 1997.
            Therefore, we concluded that individuals B and C, farming as a JV, did not
           have a significant capital contribution during 1997 and 1998.

           The corporation provided the capital for conducting the daily operations of
           the JV farming operation. Individuals B and C did not obtain an operating
           loan or establish trade accounts for the daily farming operations of the JV.
           Individual B stated that he was unable to obtain a bank loan in 1997 or 1998
           because he was not able to repay a loan from his previous farming operation
           in Canadian County, Oklahoma. He also stated that he did not establish
           trade accounts in the name of the JV for purchasing seed, fertilizer,
           chemicals, fuel, equipment maintenance, equipment rental, or any other
           farming supplies that may have been needed to conduct the operation.
           There were only two checks made to payees other than the corporation
           during 1997 and 1998, and the payments were made on the trade accounts
           for the corporation. Individual B stated that he had an agreement with the
           corporation to charge farming supplies for the operation on the corporation’s
           accounts with vendors and that the JV would later reimburse the corporation
           when the JV could afford it.

           In addition to not having an operating loan or trade accounts, there were
           absences of normal farming proceeds and expenditures in the JV’s checking
           account for 1997 and 1998. The only deposits in 1997 were PFC payments
           of $28,247 to individual B and $28,247 to individual C deposited on
           September 23, 1997, and September 24, 1997, respectively, totaling
           $56,494. The only expense was a land rental payment of $56,494 on
           September 24, 1997, which was the exact amount received from FSA
           payments. After these transactions and a service charge, the account did
           not have any additional transactions and held a balance of $12.18 until
           September 1998. Therefore, there were no operating loan funds or crop
           proceeds deposited, and no farming expenses, other than land rent, paid out
           of this account during 1997.

           During 1998, the checking account maintained the $12.18 balance until
           September 30, 1998, when PFC payments of $26,709 each to individuals B
           and C were deposited. The MLA payments of $13,280 each to individuals B
           and C were deposited on November 10, 1999, and November 12, 1999,
           respectively, while 1998 crop A proceeds of $81,803.84 were deposited on
           December 18, 1998.        The remaining deposit on December 15, 1998,
           consisted of rebates of $1,911.81 ($2,611.81 – $700.00 cash received)
           from two chemical companies for purchases on the corporation’s trade
           account .

           The first expenditure occurred in the account on October 1, 1998, after the
           first deposit of the PFC payments, when the JV reimbursed the corporation
           $53,318 for fuel, seed, and chemicals. The next expense was incurred on

USDA/OIG-A/03099-26-Te                                                          Page 13
                                    JUNE 2000
           December 16, 1998, when two chemical companies were paid a total of
           $51,236.64 for chemicals charged to the corporation’s trade account. The
           last payment from the account was on December 30, 1998, when the JV
           made an equipment payment to the corporation. The $58,645.19 payment
           was the result of the remaining balance in the checking account
           ($59,145.19), less a minimum balance of $500. In total, there were
           $163,694 in deposits and $163,206 in payments during 1998, with 69
           percent of the payments made to the corporation while the remaining 31
           percent of the payments were made on the corporation’s trade accounts.
           Furthermore, the first activity in the bank account was not until September 30,
           1998, even though the expenses related to crop A usually started occurring
           when the crop was planted in June.

           An analysis of the JV’s checking account for 1997 and 1998 clearly indicated
           that individuals B and C did not provide the capital for the JV farming
           operation. In addition, a review of individuals B’s and C’s personal bank
           account for 1997 and 1998 confirmed that no farming expenses for the JV
           were paid out of personal funds. Therefore, we concluded that the
           corporation provided the capital and the JV reimbursed the corporation as it
           received FSA program payments and crop proceeds.

           The bank activity for 1997 was in agreement with the 1997 Federal tax return
           prepared on April 13, 1998, which stated that the only revenue was from one
           FSA payment received in Canadian County by individual B and two FSA
           payments received by individuals B and C for the JV in Bryan County. The
           only expense related to the JV was a land lease payment to the corporation.
           The remaining expenses were related to individual B’s farming operations in
           Canadian County.

           The JV bank account activity for 1998 supports the income and expenses
           listed on the 1998 Federal tax return except for two items. In one case, a
           check was written for equipment purchase and was shown as an interest and
           rental expense on the tax return. Another check written to the corporation for
           seed and fertilizer did not appear as an expense on the 1998 Federal tax
           return. We concluded that there were no additional 1998 expenses paid by
           the JV other than those paid out of the checking account. It should be noted
           that the 1998 tax return was prepared on February 10, 2000, after our last
           interview with individuals B and C on January 12, 2000.

           Absence of Documentation To Substantiate JV Farming Operations

           We used the activity in the JV checking account, original 1997 and 1998 tax
           returns, and the listing of revenue and expenses provided by individuals B
           and C to review the JV farming operation. See the General Comments
           section of this report for a discussion of the 1997 and 1998 tax returns. On
           October 19, 1999, we initially requested the tax returns, bank account
           records, crop sale documents, and receipts for farming expenses incurred by
           the JV. We received the 1997 bank statements along with the supporting

USDA/OIG-A/03099-26-Te                                                          Page 14
                                     JUNE 2000
                   canceled checks and deposit slips for the JV on November 3, 1999. We
                   received these same documents for 1998 on December 2, 1999. A review
                   of the bank account information indicated that virtually all the checks were
                   written directly to the corporation. We reiterated our request for copies of
                   receipts, paid invoices, and any other documents related to farming
                   expenses incurred by the JV that may substantiate payments made to the
                   corporation. However, we were only provided a handwritten sheet of revenue
                   and expenses incurred during 1997 and 1998 and were told by individuals B
                   and C that no other documentation was available. Previously, individual A
                   had stated that the corporation did not have a note or accounts receivable
                   established for the JV and did not have any documents to show how much
                   the JV owed his corporation, as it was individuals B’s and C’s
                   responsibilities to keep track of the amounts they owed.

                   Since the corporation had a large crop B business and used the same
                   account to pay expenses of both crop B and the farming business, we could
                   not identify and reconcile the paid invoices for all expenses relating to the JV.
                     Therefore, we used the revenue and expense shown on the handwritten
                   listing and the JV’s checking account, for the basis for conclusion as to
                   whether the JV operation was a separate entity for payment limitation
                   purposes.

                   In summary, individuals B and C did not make significant contributions of
                   capital and, therefore, did not follow their forms CCC-502B for 1997 and
                   1998 by contributing 50 percent of the capital for the JV’s farming operation.
                    The corporation provided the necessary capital inputs for the JV’s farming
                   operation during 1997 and 1998 through the use of its trade accounts for
                   operating expenses. Therefore, we concluded that the capital contributed to
                   the JV was borrowed from the corporation, an entity with an interest in the
                   operation.

                   Equipment

                   Regulations state that if the farming operation is conducted by a joint
                   operation in which the equipment is contributed by the members, then the
                   equipment must not have been acquired as a result of a loan made to,
                   guaranteed by, or secured by any individual, entity, or joint operation that has
                   an interest in the farming operation, except members of the joint operation to
                   which the loan is made.7

                   Form CCC-502B for the JV stated that individuals B and C would each
                   contribute 50 percent of the equipment to the farming operation and that the
                   equipment was acquired as the result of a loan from the corporation, an entity
                   with an interest in the operation. An equipment note, bill of sale, and
                   financing statement substantiated the purchase of equipment from the
                   corporation, as stated on forms CCC-502B.

7
    FSA Handbook 1-PL (Revision 1), amendment 29, paragraph 152 C, dated March 14, 1995.

USDA/OIG-A/03099-26-Te                                                                     Page 15
                                                JUNE 2000
                   Individuals B and C acquired their equipment as the result of a direct loan
                   from the corporation. The “bill of sale” from the corporation to the individuals,
                   doing business as the JV, was for two John Deere tractors, a Great Plains
                   planter, a field cultivator, a Krause disk, and a land leveler. The equipment
                   note related to the bill of sale was secured by a security interest, covering the
                   farm equipment, all crops produced from the farm, all of maker’s other
                   tangible personal property used in the operation of the farm, all similar
                   acquired property, and all proceeds and replacements of such assets.

                   Principal and interest on the equipment note were payable in one lump sum
                   due 10 days after completion of the 1997 harvest of the principal crop from
                   the real property in Bryan County, Oklahoma, and in Fannin County, Texas,
                   containing approximately 3,100 acres, leased from the corporation to the
                   JV.

                   Individual B stated that he did not own any additional farm equipment other
                   than what was purchased from the corporation. This was substantiated by
                   revised 1997 and 1998 tax returns (see the General Comments section of
                   this report), which did not include depreciation for any other farm equipment.
                    Therefore, individuals B and C only contributed the equipment purchased
                   from the corporation to the JV. Since the equipment was purchased from the
                   corporation, an entity with an interest in the operation, it does not count as a
                   significant contribution by the JV.

                   Land

                   Regulations state that, if land is leased from another individual or entity with
                   an interest in any crop or crop proceeds in the farming operation, provisions
                   require the producer must prove to the COC that the land was leased at a fair
                   market value and that payment was made within a time determined by COC
                   to be reasonable and customary for the area.8 Also, when any capital is
                   borrowed by an individual, entity, or joint operation from any other individual,
                   entity, or joint operation with an interest in the farming operation, the
                   cash-leased land will not be considered as a significant contribution unless
                   the individual, entity, or joint operation can prove to the COC that sufficient
                   capital was available from another source to pay the cash lease.9

                   Individuals B and C, farming as members of the JV, entered into a cash
                   lease with the corporation for 3,100 acres of cropland in Bryan, Oklahoma,
                   and Fannin Counties, Texas, on March 27, 1997. This was in agreement
                   with form CCC-502B for the JV, which stated that individuals B and C would
                   each contribute 50 percent of the land to the farming operation and that the
                   land would be cash leased from the corporation. The primary term of the
                   lease began March 27, 1997, and ended without notice to tenants 30 days
                   after completion of harvest of the principal 1997 crop. The note could have
8
    FSA Handbook 1-PL (Revision 1), amendment 22, paragraph 153 B, dated March 14, 1994.
9
    FSA Handbook 1-PL (Revision 1), amendment 1, paragraph 153 D, dated August 14, 1991.

USDA/OIG-A/03099-26-Te                                                                     Page 16
                                                JUNE 2000
           been extended annually from the original termination date to a new
           termination date 30 days after completion of harvest of the farm’s principal
           crop for the then current term, for up to four renewal terms. Individuals B and
           C stated that the written lease agreement applied to both 1997 and 1998.
           Therefore, the land lease agreement was extended to the first renewal term
           of 30 days after completion of harvest of the farm’s 1998 crop A.

           The land was cash leased for the primary term at a rate of $50 per acre for a
           total lease amount of $155,000 (3,100 acres X $50). The JV was required
           to pay one-half of the rent for each lease term, including the primary term and
           each effective renewal term, on April 30 of that term, and to pay the balance
           in full within 10 days of harvest of the principal crop for that term. Crop A was
           the main crop grown on the 3,100 leased acres by the JV during 1997 and
           1998.

           However, the JV only paid $56,494 (36 percent) of the total lease payment
           for 1997 and did not pay any of the lease expense for 1998. Our review of
           the JV checking account for 1997 and 1998 and discussions with individuals
           B and C confirmed that a $56,494 land lease payment was made on
           September 24, 1997. No other land lease payments were made during
           1997 or 1998. Therefore, the JV still owes the corporation $253,506
           (($155,000 X 2 = $310,000) – $56,494 = $253,506) for the cash lease of
           crop A acres for 1997 and 1998. A review of the 1997 Federal tax return for
           individuals B and C confirmed that there was only one land lease payment
           during 1997.

           This analysis of the JV checking account indicated that the land lease
           payments were not made in a reasonable manner. The CED in Bryan County
           stated that the COC has always used December 31 of each year as the date
           land and equipment lease payments must be made for the payments to be
           considered reasonable and customary for the area. Since the 1997 and
           1998 cash-lease payments to the corporation were not made by December
           31 of each respective year, they were not considered reasonable and
           customary for the area, and the land could not count as a significant
           contribution by JV for either year. In addition, since individuals B and C did
           not provide capital and were unable to obtain operating funds through a loan
           or by establishing trade accounts, it is apparent that significant capital was
           not available from another source to pay the cash lease. As a result of the
           JV not making the land lease payments in a reasonable manner and the
           inability of the JV to obtain operating funds from a source other than the
           landowner, the land was ineligible for a significant contribution by the JV.

           JV Was Not At Risk

           Regulations state that, for a producer’s contribution to be considered at risk,
           there must be a possibility that the producer could suffer loss. In addition, if



USDA/OIG-A/03099-26-Te                                                            Page 17
                                     JUNE 2000
                   the producer is a joint operation, the members’ contributions to the farming
                   operation must be at risk.10

                   As members of the JV, individuals B and C were not at risk because they did
                   not provide operating capital, equipment, or land to the JV during 1997 or
                   1998. Instead, the corporation provided these capital inputs by allowing the
                   JV to use its trade accounts, land, and equipment without making the
                   required payments. The JV only made payments to the corporation for these
                   capital inputs as it received funds from farm program payments and crop
                   sale proceeds. Therefore, the corporation, as an unsecured creditor of
                   operating funds and holder of the unpaid equipment note and land lease,
                   assumed the risk of loss for the JV.

                   As previously stated, individuals B and C did not provide initial capital by
                   contributing personal funds, obtaining an operating loan, or establishing
                   trade accounts. Individual B stated that he did not contribute personal funds
                   and was unable to obtain an operating loan for the farming operation.
                   Individual B further stated that he had an agreement with the corporation to
                   charge farming supplies for the operation on the corporation’s accounts with
                   vendors and to reimburse the corporation when the JV received operating
                   funds. This statement was in agreement with the activity in the JV’s checking
                   account that disclosed the first payment for operating expenses during 1997
                   was not made until FSA program payments were deposited in September.
                   A $56,494 rent payment to the corporation was made immediately after this
                   same amount in PFC payments was deposited. No other deposits were
                   made during 1997, and the account balance remained $12.18 until PFC
                   payments were received and deposited on September 30, 1998. Therefore,
                   the JV paid no daily operating expenses (fertilizer, seed, chemicals, etc.)
                   associated with the 1997 and 1998 crop A until October 1998.

                   From the date of the first deposit in 1998, September 30, through the end of
                   the year, a total of $163,694 was deposited into the account. This total
                   consisted of $79,978 in FSA program payments, $81,803.84 in crop A
                   proceeds, and $1,911.81 in chemical rebates. Payments totaling $163,206
                   were made from these deposits, which left a $500 balance in the account on
                   December 31, 1998. This analysis clearly shows that operating expenses
                   incurred by the farming operation related to seed, fertilizer, chemicals, fuel,
                   equipment maintenance, equipment rental, or any other farming supplies that
                   may have been needed were charged to or paid by the corporation. The JV
                   then reimbursed the corporation when it received funds. However, based on
                   a schedule of revenue and expenses noted during our review of capital and
                   statements made by individuals B and C, the JV was unable to reimburse the
                   corporation for all the operating expenses incurred during 1997 and 1998. In
                   addition, no personal funds were deposited into the JV account, as verified
                   by individuals B and C.


10
     FSA Handbook 1-PL (Revision 1), amendment 1, paragraph 159 A, B, and C, dated August 14, 1991.

USDA/OIG-A/03099-26-Te                                                                                Page 18
                                                 JUNE 2000
           The corporation also provided capital inputs of land and equipment to the JV
           without receiving the payments in a reasonable time, as required in the land
           lease, equipment note, and program regulations. The JV executed a
           cash-lease agreement for 3,100 acres at $50 per acre for a total annual
           lease payment of $155,000.         However, the JV only paid $56,494
           (36 percent) of the total lease payment during 1997 and did not make a
           payment during 1998, leaving a remaining balance of $253,506 still owed to
           the corporation for 1997 and 1998.

           The equipment note between individuals B and C, doing business as the JV,
           and the corporation required that the principal and interest be paid in one
           lump sum due 10 days after the 1997 harvest of the principal crop. The note
           stated that principal payment could have been extended annually, if the
           interest was paid annually, when due. As with the land lease, the JV did not
           honor the terms of the equipment note and at least pay the interest when it
           was due. In fact, an equipment payment was not made until December 30,
           1998. This was after the interest due date for both 1997 and 1998 crops.
           The settlement sheets from 1998’s crop A indicated that the crop was
           delivered to the grain company between September 4, 1998, and October
           23, 1998.

           Furthermore, the $58,645.19 payment was not based on a schedule but was
           the result of the remaining balance in the checking account ($59,145.19),
           less a minimum balance of $500. In fact, individuals B and C stated they did
           not know how much of the payment applied to interest and principal because
           there was no payment schedule, and they just paid the corporation what was
           left in the checking account.

           Based on the $308,000 principal amount of the note and the 9-percent
           interest rate, the interest amount due would have been approximately the
           amount of the equipment payment made on December 30, 1998. A simple
           interest calculation would have resulted in an interest payment of $48,908,
           according to the following calculation. A total of 364 days in 1998 and 280
           days (365 less 85 days, representing January 1 through March 26) in 1997
           equaled 644 days subject to finance charges at a 9-percent annual interest
           rate. We multiplied the daily interest rate (.09/365) by the total number of
           days (644) and the principal amount financed ($308,000) to calculate the
           interest payment. Our calculation was in basic agreement with the 1998 tax
           return, which showed other interest expense of $48,910.

           The land lease and equipment note were both secured by a security
           agreement covering the farm equipment, all crops produced from the farm,
           all of the JV’s other tangible personal property used in the operation of the
           farm, all similar acquired property, and all proceeds and replacements of
           such assets. However, individuals B and C, farming as the JV, did not have
           any farm equipment other than what was included in the equipment note.
           Since the interest expense for the equipment during 1997 and 1998 was
           $48,910, the producers could only have had approximately $9,735.19

USDA/OIG-A/03099-26-Te                                                         Page 19
                                    JUNE 2000
                   ($58,645.19 – $48,910) equity in the equipment according to statements
                   made by individuals B and C.

                   The JV did not deposit 1997 crop revenue into the checking account
                   because individual B gave the 1997 crop A to the corporation. Individual B
                   stated that he told individual A to play the market with the crop, but they did
                   not have an agreement on the amount he would be paid or when he would
                   receive the proceeds. Therefore, the corporation assumed the risk of loss
                   for selling the crop on the open market.

                   Since individuals B and C did not have any significant capital contributions of
                   operating funds, equipment, or land and did not pay all of their operating
                   expenses or honor the equipment note or land lease, they were not at risk for
                   the farming operation. Instead the corporation assumed the risk for the
                   farming operation by providing unsecured operating funds and not requiring
                   the JV to pay the land lease and equipment note as required per the
                   agreements and program regulations. In fact, a note receivable or account
                   receivable was not established between the corporation and JV to provide
                   for repayment of these unpaid operating expenses, and individual A stated
                   that he did not know how much the JV owed the corporation. This indicated
                   that individual A was not concerned whether the corporation was repaid for
                   the farming expenses and assumed the risk for the JV. The corporation
                   additionally assumed the risk for selling the 1997 crop A on the open market.


                   In summary, individuals B and C, farming as the JV, did not provide a
                   significant contribution of capital, equipment, or land to the farming operation
                   during 1997 and 1998. As such, individuals B and C were not at risk
                   because the corporation assumed the risk of loss for the JV. Therefore,
                   individuals B and C did not meet the applicable program requirements and
                   were not actively engaged in farming for 1997 or 1998.

                   Separate Person

                   Regulations provide that, for an individual or entity to be considered a
                   separate person for payment limitation purposes, the individual or entity must

                   •       have a separate and distinct interest in the land or crop involved,

                   •       exercise separate responsibility for this interest, and

                   •       maintain funds or accounts separate from that of any other individual
                           or entity for this interest.11




11
     FSA Handbook 1-PL (Revision 1), amendment 23, paragraph 110 B, dated April 25, 1994.

USDA/OIG-A/03099-26-Te                                                                      Page 20
                                                 JUNE 2000
           Individuals B and C did not operate as separate persons from individual A’s
           corporation in 1997 and 1998. The JV did not maintain funds or accounts
           separate from the corporation and did not exercise separate responsibility
           for its interest in the crops. The corporation was responsible for the daily
           operating expenses and, in essence, provided the land and equipment
           because the JV did not make the scheduled payments. As a result,
           individuals B and C should be combined with the corporation for payment
           limitation purposes.

           The expenses and accounts associated with the JV became commingled
           with those of the corporation. The JV’s daily farming expenses were
           charged on the corporation’s vendor accounts and then paid by the
           corporation. The corporation only had one account for paying all of their
           expenses with no separate expenditure coding system to distinguish the
           corporation’s crops A and B operations from crop A’s operation of the JV.
           The corporation and the JV appeared to have no knowledge of what the
           other party owed other than the handwritten revenue and expense sheet.

           To complicate the situation, in 1998 the corporation bought an additional
           farm in Bryan County and used it to produce crop A. Individual B, as a
           salaried employee of the corporation, was responsible for growing and
           harvesting the crop for the corporation. During this same year, the JV also
           planted crop B on part of the land it used for crop A in 1997. Therefore, the
           corporation and JV were both raising the same crops during 1998 while all
           the expenses for these crops were charged to the same account on the
           corporation’s books.

           Although individuals B and C provided us a list of expenses incurred by the
           JV, we believe that there were several more expenditures for the operation
           commingled with corporation A’s accounts which were not included. First,
           there were no expenses for sprigs, fertilizer, and chemicals related to the
           JV’s crop B operation in 1998 on the revenue and expense listing. In
           addition, the corporation paid $15,368 on four invoices related to the JV’s
           1997 crop A operation that were not accounted for in the JV’s 1997 revenue
           and expense schedule. Individual B stated that the JV still owes the
           corporation for these expenses, but they were mistakenly left off the expense
           listing. He further stated that individual A was unaware that these additional
           expenses were owed to the corporation. With no separate records or
           accounts, the expenditures for the JV were commingled with the corporation.
             With the expenses for both operations charged to the same accounts and
           the corporation incurring over $3.5 million in 1997 expenses, it is difficult to
           distinguish between the corporation’s and the JV’s operations. This is
           illustrated by the fact that individuals B and C had difficulty in determining the
           expenses related to the JV, as noted above.

           In addition to not maintaining funds and accounts separate from the
           corporation, individuals B and C also did not exercise separate
           responsibilities for their interests in the JV’s 1997 and 1998 farming

USDA/OIG-A/03099-26-Te                                                             Page 21
                                     JUNE 2000
           operations. The following instances were noted where individuals B and C
           were not responsible for their interests in the farming operation.

           •     The corporation financed the farming operation of the JV. Individuals
                 B and C did not obtain an operating loan or establish trade accounts
                 as noted above. In response to our questions regarding the minimal
                 activity in the JV’s checking account, individual B stated that the JV
                 had an agreement with individual A to charge farming supplies for the
                 JV’s farming operation on the corporation’s accounts with vendors
                 and reimburse the corporation at a later date. However, as of January
                 2000, individual B stated that he still owed the corporation for 1997
                 and 1998 farming expenses.

           •     Individuals B and C did not sell the 1997 crop A. Individual B stated
                 that he gave the 1997 crop to individual A with the understanding that
                 he could play the market with it. He further stated that they did not
                 agree on a price for the crop, and as of January 12, 2000, he still did
                 not know what he was going to receive for the sale of the crop.
                 Therefore, individual B did not exercise control over the sale of the
                 crop or management of the proceeds.

           •     The JV planted crop B on a portion of the 3,100 acres they cashed
                 leased from the corporation in 1998. The corporation provided the
                 sprigs and equipment used for planting crop B. Individual B stated
                 that the JV did not pay the corporation rental for the equipment and
                 also did not reimburse it for the sprigs. When the crop was ready for
                 harvest, they would give the crop to the corporation in a manner
                 similar to the 1997 crop A.

           •     Individuals B and C, farming as members of the JV, cash leased
                 3,100 acres from the corporation for an annual rental payment of
                 $155,000. The JV only paid $56,494 (36 percent) of the total
                 cash-lease payment of $155,000 for 1997 and did not pay any of the
                 lease expense for 1998. Therefore, the JV still owes the corporation
                 $253,506 (82 percent) of cash-lease payments for 1997 and 1998.

           •     The equipment note between individuals B and C required that the
                 principal and interest be paid in one lump sum due 10 days after the
                 1997 harvest of the principal crop. The principal payment could have
                 been extended annually if interest was paid annually when due. The
                 JV did not honor the terms of the equipment note and at least make
                 an interest payment in 1997. This caused the JV to default on the
                 equipment note and had the effect of the corporation providing the
                 equipment to the JV at no cost.




USDA/OIG-A/03099-26-Te                                                         Page 22
                                   JUNE 2000
           •      The corporation provided the combine for harvesting and trucks for
                  hauling crop A for 1997 and 1998. The JV did not pay, and there was
                  no agreement to pay rental fees for use of the equipment. Individual B
                  stated that when it was time for harvest a combine just showed up on
                  the farm, and he used it.

           Conclusion

           Based on the manner in which the JV conducted its farming operations in
           1997 and 1998 as described above, it is evident that individuals B and C,
           employees of the corporation, were placed on the land as operators. This
           allowed individual A to conceal his true interest in the farming operation, thus
           allowing the corporation to receive payments in excess of the payment
           limitation for one person.

                                    Determine whether scheme or device, actively
 RECOMMENDATION NO. 1               engaged in farming, and separate person
                                    payment limitation provisions were violated by
       individuals A, B, and C for 1997 and 1998.

           FSA Response

           The FSA will have a joint meeting with the Bryan County FSA Committee,
           which is the control county for individuals B and C, and the Wagoner County
           FSA Committee which is the control county for individual A, in order for them
           to make a determination based on information provided in the audit.

           OIG Position

           We agree with the action taken to date, however, to reach a management
           decision for this recommendation, we will need to have a written response
           showing the joint committee’s determination.

                                  Apply the most restrictive rule and collect up to
 RECOMMENDATION NO. 2             $450,887 in 1997 through 1999 program
                                  payments issued to individuals B and C and
       individual A’s corporation as appropriate, if adverse determinations are
       made for Recommendation No. 1.

           FSA Response

           Based on the determination made at the joint committee meeting (for
           Recommendation No. 1), FSA will notify individuals A, B, and C of the
           amount of repayment required. (See exhibit E.)




USDA/OIG-A/03099-26-Te                                                           Page 23
                                     JUNE 2000
           OIG Position

           To reach a management decision for this recommendation, we will need
           documentation showing that any ineligible payments are recovered or set up
           as accounts receivable.




USDA/OIG-A/03099-26-Te                                                      Page 24
                                   JUNE 2000
                          GENERAL COMMENTS

At the completion of our fieldwork, individuals B and C submitted, through their CPA, a
revised 1997 Federal tax return dated February 9, 2000. This return included additional
expenses and income not listed on the original tax return, dated April 13, 1998, which was
obtained from the CPA on December 1, 1999. The tax return was submitted after our
discussion with individuals B and C, on January 12, 2000, when individuals B and C were
questioned about the financial aspects of the JV’s farming operation. During this interview,
they provided explanations for revenue and expenses, which did not match activities in the
JV checking account. See the listing of revenue and expenses in exhibit C.

Schedule F of the original tax return combined the income and expenses for individual B’s
operations in Canadian County, Oklahoma, with the JV’s crop A operation in Bryan County,
Oklahoma. The only portion of this schedule that related to crop A’s operation was revenue
from agriculture program payments and a land lease expense for this same amount. This
revenue and expense amount was in agreement with activity in the JV checking account for
1997. The only other activities were miscellaneous bank fees with minor expense items
under $300 and a minimum deposit to open the checking account. In addition, there were
no farming expenses paid out of individuals’ B and C personal account for the JV that
should have appeared on the tax return. Since the CPA stated that the tax return was
prepared on a cash basis, we concluded that the original tax return dated April 13, 1998,
was an accurate reflection of the activity in the JV’s checking account.

Individual B’s operations and the JV’s crop a operation were on separate schedules F on
the revised 1997 tax return. The schedule F for crop A’s operation included additional
income and expenses not included on the original return. The additional income was for
sales of products raised. However, the JV did not sell a crop in 1997. Corporation A sold
the 1997 crop A produced by the JV and received $279,620 in crop proceeds on March
17, 1998. Individual B stated that he gave the crop to individual A for him to sell and had
not received any of the 1997 crop proceeds. The JV raised no other crop during 1997.
Since the crop was not sold until 1998, the proceeds could not be included on the 1997 tax
return, prepared on the cash basis.

The additional chemical, freight and trucking, and lease expenses on the tax return agreed
with the revenue and expense listing provided by individuals B and C but were never paid.
The car and truck expenses added to the revised tax return, which were not included on the
expense listing, also were not paid. Since these expenses were not paid in 1997, they
should not have been included on the revised tax return prepared on a cash basis.

The depreciation expense on the tax return was not a cash outlay and would not have been
included in the checking account. However, the additional depreciation expense, which
was related to the depreciation of the farm equipment purchased from the corporation, was
not included on the revised return until we questioned individuals B and C about its
absence.

USDA/OIG-A/03099-26-Te                                                             Page 25
                                       JUNE 2000
The 1998 tax return, dated February 10, 2000, also did not agree with the activity in the
JV’s checking account. The account had additional expenditures that were not included on
the tax return. There was a payment for seed and fertilizer to the corporation, not included
on the tax return while a repairs and maintenance expense on the tax return was never paid
from the JV’s checking account. Another discrepancy was a payment to the corporation
for equipment on December 30, 1998, which was classified as other interest expense and
other rental expense on the tax return. This return was also prepared after our last
interviews with individuals B and C.

We do not know if the revised 1997 return was filed with the Internal Revenue Service. Due
to the differences noted above, we believe the revised 1997 return was prepared to
collaborate a schedule of revenue and expenses provided and statements made by
individuals B and C during our last interviews on January 12, 2000. We requested the
CPA to provide us the supporting schedules used to prepare the revised 1997 tax return.
Initially, he stated that he would provide the requested information. However, before the
information was transmitted, individual C contacted us and stated that we could no longer
contact the CPA, and we had all the information from the JV’s operations.




USDA/OIG-A/03099-26-Te                                                             Page 26
                                       JUNE 2000
EXHIBIT A – SUMMARY OF MONETARY RESULTS

Finding    Recommendation
Number         Number                  Description              Amount                   Category
  1                2              Scheme or Device Was            $450,887 Questioned Costs,
                                 Adopted to Evade Payment               A/ Recovery Recommended
                                         Limitation
                         Total                                    $450,887


A/ See exhibit B for details of overpayment amounts for scheme or device and not actively engaged in farming.




USDA/OIG-A/03099-26-Te                                                                           Page 27
                                              JUNE 2000
EXHIBIT B – SUMMARY OF 1997, 1998, AND 1999 FARM PROGRAM
PAYMENTS ISSUED TO JV MEMBERS AND THE CORPORATION

                                         SL PFC         NL PFC         MLA              LDP
         Producer              Year     Payments       Payments      Payments         Payments         Total
JV Members                     1997      $ 50,534.00     $5,960.00    $        0.00 $      0.00 B/ $ 56,494.00
JV Members                     1998        53,418.00          0.00        26,560.00    3,793.21 B/   83,771.21
JV Members                     1999        51,388.00          0.00        51,388.00   28,827.35     131,603.35
Total for JV Members                     $155,340.00     $5,960.00    $ 77,948.00     $32,620.56      $271,868.56
Corporation                    1997      $ 22,302.00     $1,489.00    $        0.00   $     0.00      $ 23,791.00
Corporation                    1998        31,581.00          0.00        18,645.00         0.00        50,226.00
Corporation                    1999        37,584.00          0.00        40,000.00    27,417.93       105,001.93
Total for Corporation                    $ 91,467.00     $1,489.00    $ 58,645.00     $27,417.93      $179,018.93

Total for JV Members and
       Corporation                       $246,807.00     $7,449.00    $136,593.00     $60,038.49   A/ $450,887.49


A/ If a scheme or device is determined, the 1997, 1998, and 1999 payments to the JV and corporation
    should be collected.
B/ The payments to JV for 1997 and 1998 of $140,265.21 ($56,494 + $83,771.21) should be collected if a
    not actively engaged in farming determination is rendered. This amount is included in the $450,887 if
    scheme or device is determined.




USDA/OIG-A/03099-26-Te                                                                             Page 28
                                              JUNE 2000
EXHIBIT C – INFORMATION SHOWN ON HANDWRITTEN LISTING OF
JV REVENUE AND EXPENSES

                                                 1997       1997       1998        1998
            Description/Payee                  Expense    Revenue     Expense    Revenue
Rent                                          $155,000.00            $155,000.00
Equipment Note                                 308,000.00                     A/
Preplant Herbicide                              57,200.00                   0.00
Fuel                                             6,103.98              11,098.00
Crop A                                               0.00              17,708.88
Crop A                                               0.00              34,157.76
Seed and Chemical                                    0.00              42,220.00
FSA PFC Payment                                           $28,247.00             $ 26,709.00
FSA PFC Payment                                            28,247.00               26,709.00
FSA MLA Payment                                                 0.00               13,280.00
FSA MLA Payment                                                 0.00               13,280.00
Seed Rebates                                                    0.00                2,611.81
1998 Crop A Proceeds                                            0.00               81,803.84
Total                                         $526,303.98   $56,494.00 $260,184.64 $164,393.65


A/ The $308,000 was also listed for 1998 on the schedule provided by individuals B and C,
   since no payments were made on the equipment note in 1997. It is not included for 1998,
   as it would be a duplicate listing of the same expense.




USDA/OIG-A/03099-26-Te                                                                       Page 29
                                            JUNE 2000
  EXHIBIT D – SUMMARY OF COMBINED EXCESS PROGRAM BENEFITS
  RECEIVED BY THE CORPORATION


                                                             1997
                                                                 A/                                            Total Paid In
                                                    SL PFC     NL PFC             MLA            LDP            Excess of
                Description                        Payments Payments            Payments       Payments       Payment Limit
Program Payment Limitation for One "Person"        $40,000.00 $50,000.00           N/A            N/A
Payments to Corporation                             22,302.00        1,489.00
Amount Remaining Under Pay Limit -
Corporation                                         17,698.00    48,511.00
Payments Received by JV                             50,534.00        5,960.00
Less: Amount Remaining Under Pay Limit for
Corporation                                         17,698.00    48,511.00
Amount Paid Over Corporation Payment
Limitation for One "Person"                        $32,836.00    $      0.00                                      B) $32,836.00




                                                             1998

                                                                   A)                                          Total Paid In
                                                    SL PFC       NL PFC           MLA            LDP            Excess of
                  Description                      Payments     Payments        Payments       Payments       Payment Limit
Program Payment Limitation for One "Person"        $40,000.00 $50,000.00          $19,888.00 $75,000.00
Payments to Corporation                             31,581.00       0.00           18,645.00       0.00
Amount Remaining Under Pay Limit -
Corporation                                          8,419.00    48,511.00          1,243.00    75,000.00
Payments Received by JV                             53,418.00            0.00      26,560.00     3,793.21
Less: Amount Remaining Under Pay Limit for
Corporation                                          8,419.00    48,511.00          1,243.00    75,000.00
Amount Paid Over Corporation Payment
Limitation for One "Person"                        $44,999.00    $      0.00      $25,317.00     $    0.00         B/ $70,316.00



A/ The $50,000 payment limitation for NL PFC payments applied to the entire 7-year contract.
B/ The $103,152 ($32,836 + $70,316) paid in excess of the corporation’s payment limitations for 1997 and 1998 should be
collected if it is determined that the corporation and JV should be combined into one person for payment limitation purposes
This amount is included in the $450,887 if scheme or device is determined (see exhibit A).


N/A - The MLA and LDP programs were not in effect during the 1997 crop year.




       USDA/OIG-A/03099-26-Te                                                                                 Page 30
                                                        JUNE 2000
EXHIBIT E – FSA RESPONSE TO THE DRAFT REPORT




  USDA/OIG-A/03099-26-Te                       Page 31
                           JUNE 2000
                         ABBREVIATIONS


           AMTA           Agriculture Marketing Transition Act

           CED            County Executive Director

           COC            County Office Committee

           CPA            Certified Public Accountant

           FACT ACT       Food, Agricultural, Conservation, and Trade Act of

                          1990

           FAIR ACT       Federal Agriculture Improvement and Reform Act of

                          1996

           FSA            Farm Service Agency

           FY             Fiscal Year

           JV             Joint Venture

           LDP            Loan Deficiency Payment

           MLA            Marketing Loss Assistance

           NL PAYMENT     Payments subject to a $50,000 limitation over the

                          7-year life of the PFC

           OIG            Office of Inspector General

           PFC            Production Flexibility Contract

           SL PAYMENT     Payments subject to the $40,000 limitation for each

                          year of the PFC




USDA/OIG-A/03099-26-Te                                                  Page 32
                              JUNE 2000
